<html>
<title> - BIOLOGICAL RESEARCH AT THE DEPARTMENT OF ENERGY: LEVERAGING DOE'S UNIQUE CAPABILITIES TO RESPOND TO THE COVID-19 PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                          BIOLOGICAL RESEARCH
                      AT THE DEPARTMENT OF ENERGY:
                  LEVERAGING DOE'S UNIQUE CAPABILITIES
                  TO RESPOND TO THE COVID-19 PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 11, 2020

                               __________

                           Serial No. 116-80

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-312PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                MIKE GARCIA, California
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
                                 ------                                

                         Subcommittee on Energy

                HON. LIZZIE FLETCHER, Texas, Chairwoman
DANIEL LIPINSKI, Illinois            RANDY WEBER, Texas, Ranking Member
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
JERRY McNERNEY, California           MICHAEL CLOUD, Texas
BILL FOSTER, Illinois                JIM BAIRD, Indiana
SEAN CASTEN, Illinois
CONOR LAMB, Pennsylvania
                        
                        
                        C  O  N  T  E  N  T  S

                           September 11, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Frank D. Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    10

                               Witnesses:

Dr. Mary Maxon, Associate Laboratory Director for Biosciences, 
  Department of Energy, Lawrence Berkeley National Laboratory
    Oral Statement...............................................    11
    Written Statement............................................    14

Dr. Debra Mohnen, Professor, Department of Biochemistry and 
  Molecular Biology, University of Georgia
    Oral Statement...............................................    36
    Written Statement............................................    38

Dr. Glenn C. Randall, Chair, Committee on Microbiology, The 
  University of Chicago
    Oral Statement...............................................    46
    Written Statement............................................    48

Dr. Kelly C. Wrighton, Associate Professor, Department of Soil 
  and Crop Science, Colorado State University
    Oral Statement...............................................    55
    Written Statement............................................    57

Discussion.......................................................    61

              Appendix: Answers to Post-Hearing Questions

Dr. Mary Maxon, Associate Laboratory Director for Biosciences, 
  Department of Energy, Lawrence Berkeley National Laboratory....    78

 
                          BIOLOGICAL RESEARCH
                      AT THE DEPARTMENT OF ENERGY:
                  LEVERAGING DOE'S UNIQUE CAPABILITIES
                  TO RESPOND TO THE COVID-19 PANDEMIC

                              ----------                              


                       FRIDAY, SEPTEMBER 11, 2020

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Subcommittee met, pursuant to notice, at 1:31 p.m., 
via Webex, Hon. Lizzie Fletcher [Chairwoman of the 
Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Fletcher. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time.
     Before I deliver my opening remarks, I want to note that 
the Committee is meeting today virtually. I want to announce a 
couple of reminders to the Members about the conduct of this 
hearing. First, Members should keep their video feed on as long 
as they are present in the hearing. Members are responsible for 
their own microphones. Please keep your microphones muted 
unless you are speaking. Finally, if Members have documents 
they wish to submit for the record, please email them to the 
Committee Clerk, whose email address was circulated prior to 
the hearing.
     Good afternoon, and welcome to today's hearing on 
biological research at the Department of Energy (DOE), where we 
will hear about how these capabilities are being leveraged to 
respond to the COVID-19 pandemic. I want to thank Ranking 
Member Lucas, Members of the Energy Subcommittee, and our 
witnesses for joining us today.
     Members of this Subcommittee are enthusiastic about the 
energy innovations that are coming out of DOE's national 
laboratories, and rightfully so, given that the labs have 
provided our country with breakthroughs like supercomputing, 
inventing new materials, pioneering efficient powerlines, 
improving automotive steel, and discovering 22 elements. Yes, 
the periodic table would be much smaller without the national 
labs.
     As the COVID-19 pandemic began to unfold in the United 
States, it became apparent that DOE's laboratories and programs 
were also well-positioned to help us respond to the virus. It 
is perhaps not well-known, but this territory of research is 
not new to the labs. In fact, as an example, national lab 
scientists developed a non-toxic foam that neutralizes chemical 
and biological agents. It was this foam that was used to clean 
up the congressional office buildings and mail rooms exposed to 
anthrax in 2001.
     Lab scientists are also credited for developing the field 
of nuclear medicine, producing radioisotopes to diagnose and 
treat disease, designing imaging technology to detect cancer, 
and developing software to target tumors while sparing healthy 
tissue. DOE labs house and operate national user facilities 
like the Joint Genome Institute (JGI), established by the 
Department in 1997 as part of the Human Genome Project. Today, 
institute researchers survey the biosphere and characterize 
organisms relevant to the DOE science missions of bioenergy, 
global carbon cycling, and biogeochemistry. They also provide 
advanced sequencing and computational analysis of genes related 
to clean energy generation and environmental characterization 
and cleanup. Leveraging these capabilities has enabled 
researchers to develop countermeasures against the novel 
coronavirus like diagnostic tests and allowed them to assess 
transmission and evolution dynamics as the virus spreads 
globally.
     This hearing will examine the historic reasons for why the 
Department possesses advanced bioscience capabilities to 
address the Nation's great challenges and to stimulate 
innovation, how this expertise and DOE's biological research 
tools are being leveraged to respond to the COVID-19 pandemic, 
and what future directions for the Department's biological 
system research can provide solutions for our Nation's most 
pressing issues.
     I look forward to hearing from our witnesses sharing their 
expertise on these topics, as well as hearing how the Science 
Committee can best support DOE's biological research activities 
to unleash the next generation of innovation.
     [The prepared statement of Chairwoman Fletcher follows:]

    Good afternoon and welcome to today's hearing on biological 
research at the Department of Energy, where we will hear about 
how these capabilities are being leveraged to respond to the 
COVID-19 pandemic. I want to thank Ranking Member Lucas, 
Members of the Energy Subcommittee, and our witnesses for 
joining us today.
    Members of this Subcommittee are enthusiastic about the 
energy innovations that are coming out of DOE's national 
laboratories. And rightfully so, given that the labs have 
provided our country with breakthroughs like supercomputing, 
inventing new materials, pioneering efficient power lines, 
improving automotive steel, and discovering 22 elements. Yes, 
the periodic table would be much smaller without the National 
Labs.
    As the COVID-19 pandemic began to unfold in the US, it 
became apparent that DOE's laboratories and programs were also 
well positioned to help us respond to the virus. It is perhaps 
not well known, but this territory of research is not new to 
the labs. In fact, as an example, National Lab scientists 
developed a non-toxic foam that neutralizes chemical and 
biological agents. It was this foam used to clean up 
congressional office buildings and mail rooms exposed to 
anthrax in 2001.
    Lab scientist are also credited for developing the field of 
nuclear medicine, producing radioisotopes to diagnose and treat 
disease, designing imaging technology to detect cancer, and 
developing software to target tumors while sparing healthy 
tissue.
    DOE Labs house and operate national user facilities like 
the Joint Genome Institute, established by the department in 
1997 as part of the Human Genome Project. Today, Institute 
researchers survey the biosphere to characterize organisms 
relevant to the DOE science missions of bioenergy, global 
carbon cycling, and biogeochemistry. They also provide advanced 
sequencing and computational analysis of genes related to clean 
energy generation and environmental characterization and 
cleanup.
    Leveraging these capabilities has enabled researchers to 
develop countermeasures against the novel coronavirus like 
diagnostic tests and allowed them to assess transmission and 
evolution dynamics as the virus spreads globally.
    This hearing will examine the historic reasons for why the 
department possesses advanced bioscience capabilities to 
address the nation's grand challenges and to stimulate 
innovation; how this expertise and DOE's biological research 
tools are being leveraged to respond to the COVID-19 pandemic; 
and what future directions for the Department's biological 
system research can provide solutions for our nation's most 
pressing issues.
    I look forward to hearing from our witnesses sharing their 
expertise on these topics as well as hearing how the Science 
Committee can best support DOE's biological research actives to 
unleash the next generation of innovation.
    But, before I recognize Ranking Member Lucas, I would like 
to take a moment to acknowledge that we are holding this 
hearing on the 19th anniversary of the September 11 attacks, 
and to ask for a moment of silence for us to remember and honor 
those who lost their lives, those whose lives were forever 
altered, and our first responders, the brave men and women who 
rushed in to help our fellow Americans.

     Chairwoman Fletcher. Before I recognize Ranking Member 
Lucas, I would like to take a moment to acknowledge that we are 
holding this hearing on the 19th anniversary of the September 
11 attacks, and to ask for a moment of silence for us to 
remember and honor those who lost their lives, those whose 
lives were forever altered, and our first responders, the brave 
men and women who rushed in on this day to help our fellow 
Americans.
     [Moment of silence observed.]
     Chairwoman Fletcher. Thank you. I'll now recognize Mr. 
Lucas for an opening Statement.
     Mr. Lucas. Thank you, Chairwoman Fletcher, for hosting 
this hearing, and thank you for all our witnesses for being 
with us this afternoon.
     During all the challenges and the uncertainties of this 
pandemic, one thing has stood out: our scientific community has 
gone above and beyond in the effort to understand, treat, and 
prevent COVID-19. The Department of Energy and its Office of 
Science and National Labs have been central to this effort. 
Today, we have the chance to narrow our focus to DOE's 
biological research efforts, in particular, the Biological and 
Environmental Research program, BER.
     BER is a high-priority research area within the Office of 
Science that's consistently received bipartisan support from 
this Committee. From examining the complex behavior of plants 
and microbes to developing new approaches to characterizing 
genomic information, the BER portfolio helps address today's 
public health challenges while preparing us for the next 
generation of bioscience R&D (research and development).
     Much of this work is carried out through BER's user 
facilities, including the Joint Genomic Institute, the 
preeminent facility for sequencing plants and microbes. 
Originally created to lead DOE's role in the Human Genomic 
Project, JGI sequencing and analyzes more than 200,000 billion 
bases of DNA each year, 200,000 billion. That's a huge number.
     Another key BER user facility, the Environmental Molecular 
Sciences Laboratory, or EMSL, offers over 50 premier 
instruments and modeling resources to assist researchers in 
understanding complex biological interactions. EMSL also offers 
access to high-performance computing resources to support 
advanced experimental research in the biosciences.
     Dr. Kelly Wrighton is here with us today and her work 
makes great use of the BER resources. Dr. Wrighton is an 
Associate Professor at Colorado State University and a 
recipient of the Presidential Early Career Award for Scientists 
and Engineers. I look forward to hearing more from her on the 
value of user access to BER's resources.
     BER user facilities, along with the other 25 user 
facilities maintained and operated by the Office of Science, 
are vital tools of scientific discovery and important drivers 
of national economic competitiveness. No other system in the 
world grants this kind of cutting-edge technology access to 
tens of thousands of researchers each year.
     But the other countries have taken notice. Developing the 
most advanced scientific facilities has become an intense 
international competition. The nation with the fastest 
supercomputer or most complete genomic data set for example, 
will hold a distinct advantage in nearly every field from 
materials science to predictive atmospheric modeling.
     Office of Science programs like BER need robust Federal 
support for large-scale user facilities, which academia and 
industry simply cannot afford. This is why the key component of 
my bill, H.R. 5685, the ``Securing American Leadership in 
Science and Technology Act'', is a comprehensive authorization 
of the BER program, which includes a user facility development 
program and authorization of important initiatives like the 
Bioenergy Research Centers. This legislation also doubles 
funding for the entire Office of Science over the next 10 
years. This significant investment is essential to U.S. 
leadership in Biological and Environmental Research.
     Whether it's COVID-19 or the next public health challenge, 
our understanding of these complex systems is dependent on the 
basic research conducted by BER and the Office of Science. I 
urge my colleagues on both sides of the aisle to join me in 
focusing our limited legislative days on these bipartisan 
programs.
     I once again want to thank our witnesses for being here 
today, and I look forward to a productive discussion. And thank 
you, Chairwoman Fletcher, and I yield back the balance of my 
time.
     [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Fletcher for hosting this hearing, 
and thank you to all our witnesses for being with us this 
afternoon.
    During all the challenges and uncertainties of this 
pandemic, one thing has stood out: our scientific community has 
gone above and beyond in the effort to understand, treat, and 
prevent COVID-19.
    The Department of Energy and its Office of Science and 
National Labs have been central to this effort. Today we have 
the chance to narrow our focus to DOE's biological research 
efforts-in particular, the Biological and Environmental 
Research program, or B.E.R.
    B.E.R. is a high-priority research area within the Office 
of Science that has consistently received bipartisan support 
from this Committee. From examining the complex behavior of 
plants and microbes to developing new approaches to 
characterizing genomic information--the B.E.R. portfolio helps 
address today's public health challenges while preparing us for 
the next generation of bioscience R&D.
    Much of this work is carried out through B.E.R.'s user 
facilities, including the Joint Genome Institute, the 
preeminent facility for sequencing plants and microbes. 
Originally created to lead DOE's role in the Human Genome 
Project, JGI sequences and analyzes more than 200,000 billion 
bases of DNA each year.
    Another key B.E.R. user facility, the Environmental 
Molecular Sciences Laboratory, or EMSL, offers over 50 premier 
instruments and modeling resources to assist researchers in 
understanding complex biological interactions. EMSL also offers 
access to high performance computing resources to support 
advanced experimental research in the biosciences.
    Dr. Kelly Wrighton is here with us today and her work makes 
great use of B.E.R. resources. Dr. Wrighton is an Associate 
Professor at Colorado State University and a recipient of the 
Presidential Early Career Award for Scientists and Engineers. I 
look forward to hearing more from her on the value of user 
access to B.E.R.'s resources.
    B.E.R. user facilities, along with the other 25 user 
facilities maintained and operated by the Office of Science, 
are vital tools of scientific discovery and important drivers 
of national economic competitiveness. No other system in the 
world grants this kind of cutting-edge technology access to 
tens of thousands of researchers each year.
    But other countries have taken notice. Developing the most 
advanced scientific facilities has become an intense 
international competition. The nation with the fastest 
supercomputer or most complete genomic data set, for example, 
will hold a distinct advantage in nearly every field from 
materials science to predictive atmospheric modeling.
    Office of Science programs like B.E.R. need robust Federal 
support for large-scale user facilities, which academia and 
industry simply cannot afford. This is why a key component of 
my bill, H.R. 5685, the Securing American Leadership in Science 
and Technology Act, is a comprehensive authorization of the 
B.E.R. program, which includes a user facility development 
program and authorization of important initiatives like the 
Bioenergy Research Centers. This legislation also doubles 
funding for the entire Office of Science over ten years.
    This significant investment is essential to U.S. leadership 
in biological and environmental research. Whether it's COVID-19 
or the next public health challenge, our understanding of these 
complex systems is dependent on the basic research conducted by 
B.E.R. and the Office of Science. I urge my colleagues on both 
sides of the aisle tojoin me in focusing our limited 
legislative days on these bipartisan programs.
    I once again want to thank our witnesses for being here 
today. I look forward to a productive discussion. Thank you 
Chairwoman Fletcher and I yield back the balance of my time.

     Chairwoman Fletcher. Thank you very much, Mr. Lucas.
     I will now recognize the Chairwoman of the Full Committee, 
Ms. Johnson, for an opening Statement.
     Chairwoman Johnson. Thank you very much, Mrs. Fletcher and 
Mr. Lucas, for holding this hearing today, and thank you to all 
the witnesses for being with us today.
     We meet to discuss the groundbreaking bioscience research 
supported by the Department of Energy's Biological and 
Environmental Research program, and how these capabilities are 
now being used to better understand the novel COVID-19 virus.
     DOE stewards many unique facilities related to the 
biosciences. They range from the Department's world-class 
genomic sequencing tools that have been decades in the making, 
to large x-ray light sources that can be used to identify 
various characteristics of and treatments to the virus. 
Combining this experimental knowledge with the Department's 
state-of-the-art supercomputing capabilities provides our 
Nation with a scientific testbed that is second to none.
     This extensive biological research portfolio has been 
leveraged as part of a broad departmentwide initiative called 
the National Virtual Biotechnology Laboratory (NVBL) that was 
created to help address the issues we face from the current 
global health crisis, as well as those that we can expect in 
the future. Not only are the activities of the Biological and 
Environmental Research program so critical for better preparing 
us to respond to potential future pandemics, but also for our 
national energy security and for addressing the climate crisis. 
Among other applications, research carried out under this 
program will help us develop the low-emissions biofuels of the 
future, which will be very important if we work to decarbonize 
the transportation sector and other parts of our economy.
     Today, however, our focus is on the program's contribution 
to the fight against COVID, and I look forward to our 
witnesses' testimony. I thank you again to our witnesses for 
being here, and with that I yield back the balance of my time.
     [The prepared statement of Chairwoman Johnson follows:]

    Thank you Chairwoman Fletcher for holding this hearing 
today, and thank you to all of our witnesses for being here.
    Today we meet to discuss the groundbreaking bioscience 
research supported by the Department of Energy's Biological and 
Environmental Research program, and how these capabilities are 
now being used to better understand the novel COVID-19 virus.
    DOE stewards many unique facilities related to the 
biosciences. They range from the Department's world-class 
genomic sequencing tools that have been decades in the making, 
to large x-ray light sources that can be used to identify 
various characteristics of and treatments to this virus. 
Combining this experimental knowledge with the Department's 
state-of-the-art supercomputing capabilities provides our 
nation with a scientific testbed that is second to none.
    This extensive biological research portfolio has been 
leveraged as a part of a broad Department-wide initiative 
called the National Virtual Biotechnology Laboratory that was 
created to help address the issues we face from the current 
global health crisis as well as those we can expect in the 
future.
    Not only are the activities of the Biological and 
Environmental Research program so critical for better preparing 
us to respond to potential future pandemics, but also for our 
national energy security and for addressing the climate crisis. 
Among other applications, research carried out under this 
program will help us develop the low-emissions biofuels of the 
future, which will be very important as we work to decarbonize 
the transportation sector and other parts of our economy.
    Today, however, our focus in on the program's contribution 
to the fight against COVID, and I look forward to our 
witnesses' testimony. Thank you again to our witnesses for 
being here, and with that I yield back the balance of my time.

     Chairwoman Fletcher. Thank you, Chairwoman Johnson.
     If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
     And at this time I would like to introduce our witnesses. 
Dr. Mary Maxon is the Associate Laboratory Director of 
Biosciences at Lawrence Berkeley National Laboratory where she 
oversees Berkeley Lab's biological systems and engineering, 
environmental genomics and system biology, molecular biophysics 
and integrated bioimaging divisions, and the DOE Joint Genome 
Institute. Prior to joining Berkeley Lab, Dr. Maxon worked in 
the biotechnology and pharmaceutical industries, as well as the 
public sector in such positions as Assistant Director for 
Biological Research at the White House Office of Science and 
Technology Policy where she developed the National Bioeconomy 
Blueprint.
     Dr. Debra Mohnen is Professor of Biochemistry and 
Molecular Biology at the Complex Carbohydrate Research Center 
at the University of Georgia. She has studied plant cell wall 
synthesis, structure, and function for more than 30 years and 
currently serves as Research Domain Lead for Integrative 
Analysis and Understanding within the Department of Energy-
funded Center for Bioenergy Innovation (CBI).
     Dr. Glenn Randall is a Professor of Microbiology and Chair 
of the Committee on Microbiology at the University of Chicago 
where, for the past 15 years, he's overseen studies for 
emerging RNA viruses. This year, Dr. Randall was also appointed 
the Director of Emerging Infection Research at the Howard 
Taylor Ricketts Regional Biocontainment Laboratory where he 
leads the lab's COVID-19 research.
     Last but certainly not least, Dr. Kelly Wrighton is a 
Professor for Soil and Crop Sciences and Microbiome Science at 
Colorado State University where her research focuses on the 
chemical reactions catalyzed for microorganisms. Prior to 
joining Colorado State, Dr. Wrighton was an Assistant Professor 
of Microbiology at the Ohio State University.
     So thank you to all of our witnesses for joining us today. 
As you should know, you will each have 5 minutes for your 
spoken testimony. Your written testimony has already been 
circulated and will be included in the record for the hearing. 
When you've completed your spoken testimony, we will begin with 
questions. Each Member will have 5 minutes to question the 
panel. We will begin with our witness testimony, and we'll 
start with Dr. Maxon. Dr. Maxon, please begin.

                  TESTIMONY OF DR. MARY MAXON,

         ASSOCIATE LABORATORY DIRECTOR FOR BIOSCIENCES,

                      DEPARTMENT OF ENERGY,

              LAWRENCE BERKELEY NATIONAL LABORATORY

     Dr. Maxon. Chairwoman Johnson, Ranking Member Lucas, 
Chairwoman Fletcher, Ranking Member Weber, and Members of the 
Committee, thank you for including me in this important 
hearing. My testimony reflects my views only and not those of 
the Department of Energy.
     DOE's history of biological research is fascinating from 
pioneering nuclear medicine and understanding the impact of 
radiation on humans to how biology drives energy solutions and 
creates new economic option opportunities for the U.S. 
bioeconomy. Because of the foundation and biology built across 
the national lab complex, the Office of Science Biological and 
Environmental Research program, BER, is today one of the 
world's leading supporters of nonhuman bioresearch. That is 
biology of microbes and plants. BER delivers transformative 
energy and environmental discoveries and solutions and, along 
with the broader Office of Science and DOE capabilities, can 
respond aggressively to national crises such as the current 
coronavirus pandemic.
     Berkeley Lab's founder Ernest Lawrence in 1931 invented 
the cyclotron, a particle accelerator that is the original 
ancestor of today's DOE light sources, the large hadron 
collider, and particle accelerators around the world. 
Understanding the cyclotron's potential beyond physics, 
Lawrence asked his younger brother John, an M.D., to harness it 
for bioresearch, a move that changed modern medicine forever 
and laid the foundation for DOE's biosciences capabilities.
     In 1937, John used radioisotopes from the cyclotron to 
successfully treat a bone marrow disorder and later used beams 
of energized neutrons to treat leukemia, the first cancer 
treatment with beams from a particle accelerator. And with 
that, the field of nuclear medicine was born.
     Bioresearch wasn't limited to human health. At Lawrence's 
urging, Melvin Calvin and his colleagues used a radioisotope of 
carbon to trace how sunlight drives photosynthesis, winning a 
Nobel Prize in 1961.
     Because of BER's deep expertise in bioresearch and the 
Department's role in large interdisciplinary initiatives, the 
Nation turned to DOE and then later to the NIH (National 
Institutes of Health) to sequence the human genome. DOE's part 
of the Human Genome Project was focused on a collaboration 
among three national labs to create the Joint Genome Institute, 
the JGI. JGI contributed 13 percent of the total Human Genome 
Project and, now managed by Berkeley Lab, is the largest 
facility in the world dedicated to genome sciences for energy 
and environmental solutions. With roughly 65 billion genes from 
microbes alone--and that's significant given the basis of 
every--almost every biomanufacturing process starts with genes 
and circuits of genes harnessed to make useful bioproducts, 
including fuels and therapeutics.
     Today, Berkeley Lab's Joint Bioenergy Institute, JBEI, a 
BER Bioenergy Research Center, has leveraged DOE's bio-
expertise, facilities, and whole systems approach to lower the 
cost of bio-based isopentenol, which has an energy density 
close to gasoline. Ten years ago, one gallon of isopentenol 
produced in the lab cost about $300,000, and today, it's closer 
to $3 a gallon.
     DOE is now able to respond to the coronavirus in similar 
ways to the Human Genome Project response and JBEI's systemic 
approach, that is with diverse teams working together under the 
National Virtual Biotechnology Lab established by Office of 
Science Director Chris Fall and directed by Deputy Director 
Harriet Kung. The NVBL has brought together all of the national 
labs to advance innovations in coronavirus testing, new targets 
for therapeutics, epidemiological and logistical support, and 
to address supply chain bottlenecks. The national labs are now 
leveraging DOE user and collaboration facilities to understand 
the ancient origins of coronaviruses to identify possible 
COVID-19 treatments quickly, develop biomanufacturing processes 
for new therapeutics, and investigate new materials and 
reagents for viral detection.
     DOE's bio-capabilities promise to give rise to future new 
tools to reproducibly study biological systems in controllable, 
fully instrumented lab ecosystem environments, something not 
possible today anywhere in the world. These new fabricated 
ecosystems are envisioned to help understand microbiomes and 
how they control soil carbon cycling and could also be used to 
detect, identify, and mitigate new pathogens in soil systems.
     In summary, DOE's bioresearch enterprise has a significant 
history and an urgent, vital future for delivering scientific 
solutions to drive the U.S. bioeconomy. Thank you very much.
     [The prepared statement of Dr. Maxon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Fletcher. Thank you very much, Dr. Maxon.
     Dr. Mohnen, would you like to go next?

                 TESTIMONY OF DR. DEBRA MOHNEN,

             PROFESSOR, DEPARTMENT OF BIOCHEMISTRY

          AND MOLECULAR BIOLOGY, UNIVERSITY OF GEORGIA

     Dr. Mohnen. Certainly. Good afternoon, Chairwoman 
Fletcher, Ranking Member Lucas, and Members of the 
Subcommittee. It is my pleasure to respond to the three 
questions about the Biological and Environmental Research 
program, BER, within the DOE Office of Science.
     First, why does the BER program have biological research 
and development activities and capabilities? That's a good 
question. One might ask what does energy have to do with 
biology. And the short answer would be a lot.
     First, let's consider DOE's history. DOE was established 
in 1977 through a consolidation of more than 30 energy-related 
efforts in different government agencies, some of which were 
already doing viral science. Thus, even at the time of its 
establishment, DOE was involved in bioscience. The origin of 
the biological research within the U.S. energy effort began 
during and after World War II with the Manhattan Project and 
the postwar Atomic Energy Commission and the development of an 
advisory committee to study the effects of radiation on humans. 
And this was later expanded to studies on the effects of 
radioactive fallout on the atmosphere, terrestrial, and marine 
environments and organisms.
     Thus, from the origin of DOE and the later-formed BER, 
they supported a combination of physical, chemical, and 
biological research. This was carried out by both DOE and 
academic scientists and facilities. And the goal was to meet 
the U.S. energy needs.
     Importantly, due to a mandate for DOE at the time, there 
was a formal division between the basic and the applied 
research, and the Office of Energy Research, later named the 
Office of Science, was given the task to oversee the basic 
research programs. And since BER is a part of the Office of 
Science, it supports and fosters critical basic science to meet 
current and future energy needs.
     In keeping with its historic roots, the current stated 
goal of the BER program is, and I quote, ``to support 
scientific research and facilities to achieve a predicted 
understanding of complex biological Earth and environmental 
systems with the aim of advancing the Nation's energy and 
infrastructure.''
     It's relevant to today's hearing that the knowledge, 
tools, intellectual workforce, and facilities that BER has 
supported and developed over the last 30 years to meet the U.S. 
energy needs have provided cutting-edge scientific 
instrumentation, facilities, and expertise that can immediately 
be applied to national emergencies such as the development of 
COVID-19 pandemic. As mentioned already, these capabilities 
include DNA and RNA sequencing, including the initial mapping 
of the human genome, and to date, having fully sequenced 
genomes of over 12,000 bacterial species, 3,000 viral, and 93 
plant species. This is an enormous accomplishment. Importantly, 
BER has also supported the development of a systems biology 
approach and, via the use of supercomputers and artificial 
intelligence, to help understand and model complex organisms.
     Second, how are the BER-funded expertise and advanced 
research tools being leveraged to respond to the COVID-19 
pandemic? The world-leading capabilities I've just mentioned, 
including the world's fastest computers, have enabled the BER-
funded researchers to rapidly direct their attention to the 
national and global threat of COVID-19. The DOE capabilities 
being brought to bear include--I'll just mention two here--DOE 
structural biology resources, which have led, among others, to 
a new understanding of the three-dimensional structures and 
molecular actions of protein components of the SARS-CoV-2 
virus, which helps us understand the disease.
     Another example is the work by DOE Oak Ridge National 
Lab's Systems Biologist Dan Jacobson, who uses Oak Ridge 
supercomputers and systems biology to analyze the genome, the 
transcriptome, the RNA, the proteome, and evolutionary data 
from human lung samples of very ill people and also people--
control samples, as well as taking advantage of the data across 
the world. His team has recently published and has continuing 
to work based on these holistic analyses a new proposed 
mechanism for COVID-19 infection, as well as multiple therapies 
using existing FDA (Food and Drug Administration) drugs 
discovered through this systems biology approach.
     And finally, the future directions of the BER department, 
the importance of understanding and utilizing complex 
biological systems to meet our current and future energy needs 
is particularly evident when one considers that, each year, 
more than 100 billion tons of carbon dioxide are fixed by 
photosynthetic organisms into biomass, and this biomass is 
essential. It's an essential large-scale renewable resource for 
energy, chemical, and biomaterials production. And when one 
considers that fossil fuels, which represent 80 percent of our 
current U.S. energy needs, are simply ancient biomass that was 
converted over time and pressure to petroleum, natural gas, and 
coal. Thus, the importance of understanding plants and microbes 
that produce and can transform this biomass into materials and 
energy cannot be overstated.
     And, in conclusion, just as BER carried out biological 
research in the past to safely develop energy supplies, it's 
future must take the next step in understanding and utilizing 
biology and biological organisms to ensure a continuing and 
strong U.S. energy portfolio. Indeed, the United States should 
lead the world in these efforts, the results of which will 
drive a new national and world economy. Thank you.
     [The prepared statement of Dr. Mohnen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Fletcher. Thank you, Dr. Mohnen. Next, we'll 
hear from Dr. Randall.

               TESTIMONY OF DR. GLENN C. RANDALL,

               CHAIR, COMMITTEE ON MICROBIOLOGY,

                   THE UNIVERSITY OF CHICAGO

     Dr. Randall. Chairwoman Fletcher, Ranking Member Lucas, 
and Members of the Subcommittee, I thank you for the 
opportunity to participate in today's discussion about 
biological research at the Department of Energy.
     As was mentioned, I am currently directing COVID-19 
research at one of our country's 13 regional biocontainment 
laboratories, and so I will focus my remarks as to how DOE is 
responding to COVID-19.
     So, earlier this year, we established a SARS-CoV-2 
research core, and the idea behind this is that very few of 
these high biocontainment biosafety level III facilities exist, 
and there are many people with good ideas who don't have access 
to high containment. And so we provide collaborations where we 
provide both the facilities and the expertise to work directly 
with SARS-CoV-2. And this is primarily focused on evaluating 
treatments and vaccines, a little bit on the biology of the 
virus but mostly translational.
     It's in this capacity that I've gained a real appreciation 
for the value of the COVID-19 research performed in the 
Department of Energy. In particular, I've enjoyed multiple 
productive COVID-19-related collaborations with scientists at 
the DOE's Argonne National Laboratory that I would be happy to 
discuss in further detail. But suffice it to say we have 
identified dozens of therapeutics, both FDA-approved and novel, 
that are active against the virus, at least in vitro.
     The DOE's Office of Science's Biological and Environmental 
Research or BER program, as has already been discussed, has a 
storied history integrating biologists, physicists, computer 
scientists, and engineers to address some of the important 
questions of today and tomorrow. Many of the extraordinary 
capabilities that BER has nurtured have been foundational to a 
specific response to COVID-19, which is the virtual 
biotechnology library. This is a consortium of all 17 DOE 
national laboratories, each with core capabilities that are 
relevant to the threats posed by COVID-19. They leverage 
expertise in technology that synergistically interact with each 
other, academia, and industry to advance our fight against 
COVID-19.
     This effort capitalizes on long-held expertise in BER in 
unequaled strengths, particularly solving structures of 
proteins, what they look like, and how to target them with 
drugs or neutralizing antibodies and supercomputing to 
stimulate billions of potential drug target interactions. This 
amplifies our current pharmaceutical capabilities by orders of 
magnitude.
     It is in these two areas that I have collaborated with the 
DOE scientists and am most knowledgeable. I have worked 
together, as I said, to identify multiple drug candidates with 
DOE scientists. Other areas of NVBL emphasis include genome 
sequencing to track SARS-CoV-2 evolution and potential 
development of resistance to treatments, epidemiological and 
logistical support, protected data bases that would host 
patient health data for research and analysis, manufacturing 
capabilities to address supply chain bottlenecks in areas such 
as PPE and ventilators, testing of clinical and nonclinical 
samples, and, more recently, a project designed to address open 
questions about the mechanisms of SARS-CoV-2 transmission that 
will help inform approaches to interrupt chain infections and 
inform strategies that will guide our resumption to normal 
activities.
     The coordinated response of the NVBL to COVID-19 addresses 
critical needs in developing effective cures and vaccines that 
will help end the pandemic and, as applies to the future, will 
help provide a framework with how to more--be more responsive 
to the coming pandemics because this won't be the last one. 
Thank you for your time.
     [The prepared statement of Dr. Randall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Fletcher. Thank you very much, Dr. Randall. 
We'll now hear from Dr. Wrighton.

              TESTIMONY OF DR. KELLY C. WRIGHTON,

            ASSOCIATE PROFESSOR, DEPARTMENT OF SOIL

          AND CROP SCIENCE, COLORADO STATE UNIVERSITY

     Dr. Wrighton. Chairwoman Fletcher, Ranking Member Lucas, 
and the rest of the Committee, thank you for inviting me today. 
As you've heard about DOE's history of biological research, I'm 
here to tell you about how this history of pioneering 
biological research is active today and is perhaps best 
manifested by ongoing DOE investments in user facilities, 
including those of the Joint Genome Institute or the JGI and 
the Environmental Molecular Sciences Laboratory or EMSL, 
amongst more than 20 other facilities. Although I am not 
directly affiliated with these facilities, I represent the 
experience of a self-titled superuser.
     Since my laboratory's inception in 2014, I have managed 
nine different projects and awards with EMSL and JGI. From my 
narrative, I want you to take away a key message. These user 
facilities propel science in this country and especially can 
benefit those like myself at the earliest stages of their 
independent research programs.
     Starting your research program at a university is much 
like starting your own small business. Essentially, your job is 
to take the university's investment in you called startup 
funding and use it to finance innovative science. The goal is 
the short-term investment by the university will enable one to 
obtain data and recognition to compete for external research 
dollars that fuel independent scientific endeavors.
     User facilities played a vital role in my early career by 
allowing me to maximize my startup investment. First, they 
allowed me to scale my scientific scope beyond what was 
possible in my new laboratory with a small nascent workforce. 
Second, they provided me access to equipment beyond what was 
located in my building or even on my campus. Third, they 
networked me with experts who are at the cutting edge of their 
fields.
     My early collaborations with DOE user facilities led to 
scientific publications that developed me as a research leader 
in a few short years. More important, we generated data that 
facilitated my future fiscal independence, forging projects 
sponsored by U.S. industry and the National Science Foundation. 
This symbiotic relationship between individual researchers and 
user facilities benefits the entire scientific community 
because what it enables us to do is collect diverse data 
streams and then this content is subsequently populated in data 
bases that's shared with the community. In summary, DOE 
investments and user facilities are invaluable resources that 
amplify innovation and extend the research dollars of our 
scientific enterprise.
     I know today when we talk about biology we must addressed 
the dominant issue of public health, COVID-19. While DOE's 
direct contributions to COVID-19 research will be articulated 
and were very well-articulated by other members of my panel, an 
area that I can speak to is this idea of translational 
investment. Essentially, how is investment in one scientific 
arena energize or cross-pollinate other parallel scientific 
discovery? You don't have to know biology or envision--that 
detangling invisible microbes from wetland soils or shale rock 
is not the cleanest or easiest of work. On the environmental 
side, we have a long history of developing methods for 
isolating DNA and RNA from these complex matrices, technologies 
that are used by my colleagues doing SARS-CoV-2 surveillance 
research in wastewater and other systems.
     Moreover, even prior to the pandemic, DOE was leading 
investments in viral mechanistic ecology from every habitat we 
explored from deep below the Earth's surface to our soils, to 
our rivers, and even our own guts, research for my group and 
others has recovered new viruses and demonstrated key roles for 
these viruses in modulating nutrient cycles.
     Currently fueled by DOE's support, teams I am part of are 
devising new software for rapidly detecting viral genomic 
signatures and environmental data, as well as defining the 
biochemistry enigmatic within these poorly understood viruses. 
In summary, DOE has developed the foundational expertise in 
technology and genomic sciences that can lead and be translated 
to epidemiological solutions for today and future public health 
challenges.
     Lastly, despite the advanced capabilities user facilities 
shepherd, looking to the future, there are areas to reinforce 
our Nation's capabilities. Currently, genomics information is 
being generated faster than the corresponding capabilities can 
keep up with, and more so than our computational infrastructure 
can mine. This means we have thousands to tens of thousands of 
genes that lack any known function or, said more positively, 
this means there is a huge reservoir of biotechnological 
applications awaiting discovery.
     But what three areas are needed to expedite the speed in 
which researchers can translate genomics information into 
actual knowledge? We--first, we need a coordinated, organized 
computational infrastructure that enables computer-aided 
pattern recognition of this deluge of genomics and microbiome 
data. Second, we need research automation and scale that extend 
beyond the resources of any one lab and even those of our user 
facilities as they're designed today. And last, the heart of 
future discovery lies in creating this multidisciplinary 
higher-risk collaborative space.
     In summary, this streamlined and cross-disciplinary 
scientific vision will allow us to embark on a new era of 
decoding biological information that heavily leverages DOE's 
genomic infrastructure. This trailblazing will result in new 
biotechnological innovations to environmental, engineering, and 
health-related challenges that will be faced by mine and 
subsequent generations. I thank you for your time.
     [The prepared statement of Dr. Wrighton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Fletcher. Thank you, Dr. Wrighton. We will now 
proceed with our first round of questions, and I will recognize 
myself for 5 minutes.
     This question that I have is really a broad question 
directed at all of the witnesses, so happy for you all to take 
this in any order you choose and to kind of share with us 
between each other a question about what has happened basically 
in response to the pandemic. DOE launched the National Virtual 
Biotechnology Laboratory, NVBL, which is charged to mobilize 
the resources of the Department's 17 national labs to engage in 
COVID-19 research.
     I would like to hear from you all whether you think the 
NVBL should continue its work even in the future when we are 
not actively responding to a global pandemic, and if so, why? 
And if you could touch on in your responses maybe in what ways 
could the activities of the NVBL help accelerate [inaudible] 
pandemic and how has the creation of the NVBL influenced 
operations or changed the partnerships between the national 
laboratories or with academia and the private sector?
     So I'd love to turn it back to the panel for your thoughts 
on that question, and maybe if we'll go back in order, we could 
start again with Dr. Maxon.
     Dr. Maxon. Thank you for the question. I'll tackle a 
couple of parts of it, the first being do I think the NVBL 
should continue? I think there are a number of good reasons why 
the NVBL should continue, and a primary one being that it's 
likely that this will not be the only pandemic that we'll see, 
and it would be a missed opportunity not to have an NVBL poised 
and ready to tackle the next one.
     You also asked about how has the creation of the NVBL and 
the response of the coronavirus pandemic influenced 
partnerships. I can say having been at a national lab for a 
number of years now, I've never seen more collaboration across 
the national labs working synergistically on a common problem 
with different pieces of it in ways that we are now doing as a 
consequence of the NVBL.
     Chairwoman Fletcher. Terrific. Thank you, Dr. Maxon. Dr. 
Mohnen?
     Dr. Mohnen. If I could be the last one to speak----
     Chairwoman Fletcher. Sure.
     Dr. Mohnen. --I'm not directly influenced--I want to read 
up just a little bit.
     Chairwoman Fletcher. Oh, absolutely. I will come back to 
you. Maybe Ms. Wrighton?
     Dr. Wrighton. Sure. I actually am not directly affiliated 
with NVBL as well, but I think when I was talking about this 
future of discovery and how we can catalyze and build around 
kind of a central unit and a theme, I think NVBL embodies that. 
And so really it was a problem that we were faced with as a 
research community, and it took new disciplinary teams and it 
brought together people that hadn't worked together before. And 
I really think that that's the heart and soul of this future 
kind of innovation is building these kinds of teams to address 
real-time problems. So I really think that NVBL and others like 
it should continue.
     Chairwoman Fletcher. Terrific. Thank you, Dr. Wrighton. 
And Dr. Randall?
     Dr. Randall. Yes, I'd like to first amplify what Dr. Maxon 
said, which is that there will be future pandemics. And I think 
there's a history of investing briefly in an emergency and then 
sort of forgetting, and so the anthrax attacks are an example 
of where we had biodefense apparatus that was heavily invested 
in for 10 years and then was no longer supported. And really, 
as we look at what works and doesn't work and have a response 
to the current pandemic, that can really help through the 
framework of how we respond to the next one.
     From my personal interactions, the advantages are 
teamwork, collaboration, and really bringing forward a 
multipronged attack to address multiple disparate issues with 
this pandemic. In terms of immediate needs--I can talk about my 
own experience. We've talked a lot about the capabilities of 
the labs to solve protein structures. I benefited in that by 
the time we got SARS-CoV up and running here, our colleagues a 
few blocks away at Argonne had already solved structures of 
some of the most important proteins that are drug targets. Now, 
we screen with them, give them the drugs, and within a week 
they can show where the drug has bind to that protein, how to 
make the drug better, and how the drug works. It's spectacular.
     And the other aspect I would highlight is the 
supercomputing. So, the typical drug company has compound 
libraries of 1 to 3 million compounds that they'll physically 
screen, and so there's a consortium of supercomputing that 
basically put together a virtual library of every chemical on 
earth, 5 billion. So you're talking three orders of magnitude 
more and can basically do machine learning and artificial 
intelligence to look at how these compounds bind to these drug 
targets and then whittle that down to the top thousand or so 
and then bring them over to my lab where we can test if they 
work. And quite a few do. And really, you know, there hasn't 
been drug screening thought of this way, this is going to go 
way beyond COVID to any disease model, cancer, et cetera. So 
there's really a lot that can be leveraged not only for COVID 
but for future advancement.
     Chairwoman Fletcher. Thank you so much, Dr. Randall. And 5 
minutes goes very fast, so I will thank all of you for your 
answers. Unfortunately, my time has expired, so I will now 
recognize Mr. Lucas for 5 minutes.
     Mr. Lucas. Thank you, Chairwoman.
     Dr. Wrighton, in your research you leverage expertise from 
the Joint Genomic Institute and the computational capacities of 
the Environmental Molecular Sciences Laboratory. Can you talk 
about your experiences in working with both user facilities?
     Dr. Wrighton. Sure. I don't know how familiar everyone is, 
but if and when you want to access user facility resources, 
basically, you write a grant. That grant gets reviewed by a 
board or a review panel of other scientists. And so basically 
the DOE gives you a charge. So this year, the theme is--and 
then they actually look at goodness of fit. So I've written 
grants and I've basically been awarded many by JGI, the Joint 
Genome Institute, as well as at EMSL. I actually don't use 
their computational resources. I use more of their molecular 
resources.
     So they are innovators. I mean, they have access both at 
Ohio State and Colorado State we did not have the FTICR mass 
capabilities, this mass spec capabilities that EMSL had. And so 
it was a great example of where I didn't have resources on my 
campus, nor did we have trained experts that could use that 
environmental data, but I could collaborate with EMSL and I 
could get detailed information on the molecular structural of 
the soils that I was working in. And so they serve that role 
for many in the scientific community. And so it really is a way 
to enhance accessibility and to really expand your science 
beyond any boundaries that you may have on your campus or in 
your department.
     The same goes for JGI. I mean, the sequencing capabilities 
they have, I could maybe sequence 10 samples. With them, I've 
had hundreds to thousands of samples sequenced in a rapid 
turnaround time.
     Mr. Lucas. Speaking of accessing facilities, could you 
touch on for a moment about how the COVID-19 pandemic has 
affected your access to these facilities?
     Dr. Wrighton. Yes, you know, I have not--it has not 
changed my access to these facilities per se. I mean, 
obviously, when there's lab shutdowns, these facilities were 
also shut down, but only in that sense. And I think that the 
facilities are really just trying to make good faith to turn 
around and get samples processed as rapidly as they can. So I 
have not seen a change in my science in collaboration with 
those facilities due to COVID-19.
     Mr. Lucas. Dr. Maxon, can you give us your perspective 
from the laboratory side of how COVID has impacted access to 
user facilities at the Berkeley Lab?
     Dr. Maxon. Yes, thank you for that question. Many of the 
facilities at the lab have remote capability, the 
supercomputing facilities, the Joint Genome Institute. Several 
of the data handling things obviously happen remotely. The 
advanced light source has remote activities.
     However, there are things that need to get done by humans, 
and we are working very hard now to understand with safe what 
we call COVID controls, face coverings and distance working to 
protect the workers and shiftwork actually, which we never did 
before. We're trying to bring the full strength of the user 
facilities back online because we know the users depend on 
them. So we're doing our best to do that now, and we're not 
quite up to full speed, certainly not at the JGI yet, but we 
are definitely trying.
     Mr. Lucas. From your position now looking forward, what do 
you expect in terms of the requests from researchers from this 
point on?
     Dr. Maxon. I think it will largely depend on what 
researchers can do with respect to collecting field samples. In 
the case of the JGI, we're looking at DNA that comes--nucleic 
acids that come from field samples. And if researchers are able 
to do the fieldwork that generates the samples that then gets 
sent to the user facilities, then I think it will be a good 
response. I think we'll be fine. We'll be able to have a lot of 
users' needs met. If, however, the pandemic limits the ability 
of people to travel to go to their field sites, I think there 
will be a reduced demand.
     Mr. Lucas. Absolutely. Dr. Wrighton, one more question. On 
top of being a frequent facility user, you also sit on the JGI 
advisory board. What would it mean for your researchers or 
others you hear from if BER's user facilities are not updated? 
Would the facilities simply become obsolete?
     Dr. Wrighton. Yes. Yes. I mean, absolutely. I think 
especially JGI does a really nice job and they have a call for 
early investigators, so you're not competing with people who 
have 20 years of experience. You're competing in a much smaller 
group, and they really train you in how to analyze the data and 
how to work with your data. So if those investments weren't 
made, I think that the biggest impact would actually be on the 
next generation of science and early career scientists 
especially because they do a really good job of kind of 
corralling scientists into learning how to use the data and the 
technology, as well as giving access.
     So one of the neatest things about JGI is that they're 
always on the cutting edge. I mean, they're using the newest 
technology. And so I think that's what keeps them so 
competitive and makes them a place that really people want to 
come and bring their data and be part of because of the benefit 
of the cutting-edge technology they offer.
     Mr. Lucas. Thanks, Doc. And Chair, my time's expired. I 
yield back.
     Chairwoman Fletcher. Thank you, Mr. Lucas. I'll now 
recognize Chairwoman Johnson for 5 minutes.
     Chairwoman Johnson. Thank you very much. I'd like to start 
with Dr. Mohnen. As you noted in your testimony, much of the 
COVID-19 research BER has carried out and has built upon years 
of previous research. Can you speak to the importance of 
consistent and robust long-term investments in the BER program 
as a tool to fight future health and environmental crises?
     Dr. Mohnen. Yes, absolutely. I've been working now in the 
capacity of the bioenergy research centers with DOE and many 
BER-funded researchers for over 13 years. And it's very 
interesting to compare just briefly academic researchers versus 
DOE. DOE researchers are very much mission-driven. Academic, as 
was mentioned, you decide on the field or fields you're going 
to develop, and you do a very deep dive. And so what the DOE 
labs have been able to do is they take a mission-oriented long-
term approach on developing capabilities and then proving them 
and do multiple things at once. They will attack critical 
questions that are mission-important.
     And one of these, for example, with the bioenergy research 
centers, has been to understand both on the microbial side and 
on the plant side the complex array of genes on the plant side 
that make the biomass and modify it. This has led to 
understandings that have allowed us to manipulate plants to get 
them to grow six times more biomass in the field. This has led 
to understandings of microbes that can produce chemicals. This 
has led to the development of systems biology capabilities and 
artificial intelligence to look at huge gene networks. And this 
research has both a fundamental and a potentially applied 
portion of it. And it develops a long-term commitment to build 
on the foundations that are established.
     So even though we've made, for example, great strides in 
understanding how to utilize biomass, deconstruct it so to 
speak, convert it into various types of biofuels, we're still 
at a point where there is, again, as much that needs to be 
learned to make the kind of fuels that are needed for the 
future, to understand the involvement of the microbes in the 
field to biomass growth to be able to respond to climate 
change.
     I'm not sure. Did I answer your question well? I could 
continue.
     Chairwoman Johnson. Yes. Are there other witnesses who 
would like to comment on that?
     OK. Well, Dr. Maxon, DOE has a long history of supporting 
a variety of user facilities used by researchers all over the 
world. In particular, DOE holds several x-ray light sources 
that allow in-depth studies of materials at the atomic and 
molecular levels. Could you expand on how these light sources 
have been used to better understand COVID-19, as well as 
diagnostic and treatment options?
     Dr. Maxon. Thank you for the question. Yes, the x-ray 
light sources have been critically important. One of my 
colleagues on the panel mentioned that the x-ray light sources 
are being used to study in detail the specific proteins of the 
SARS-CoV-2 virus, how those proteins interact with the host, 
that's critically important, and so that's one simple example.
     Yesterday, I saw a fascinating presentation by a 
researcher using the Advanced Light Source with soft x-ray 
tomography to look inside cells that are infected with SARS-
CoV-2. What does it look like when they're not infected, what 
does it look like when they're infected, and how can we 
understand how the virus can hijack the internal machinery of 
the cell to make more and more viruses? And so I would say the 
light sources have very quickly responded to help not only 
identify the critical pieces of the viral proteins but 
understand how the virus does what it does inside the host 
cells to make advances toward new therapeutics.
     Chairwoman Johnson. Thank you very much. I think my time 
is about to expire, so I yield back.
     Chairwoman Fletcher. Thank you very much, Chairwoman 
Johnson. I will now recognize Mr. Biggs for 5 minutes. Is Mr. 
Biggs still with us?
     Mr. Lucas. I believe he's departed.
     Chairwoman Fletcher. I believe he has, in which case I 
will recognize Mr. Cloud for 5 minutes.
     Mr. Cloud. Can you pass on me for the moment?
     Chairwoman Fletcher. Yes, I can. I will now recognize Dr. 
Baird for 5 minutes.
     Mr. Baird. Thank you. I really appreciate the opportunity 
to sit in on this session, and it's fantastic, the work that 
these researchers are doing.
     Dr. Maxon, you just finished discussing how the proteins 
in the coronavirus, what they do in infected cells. And would 
you care to elaborate on that? I find that very interesting, 
how those proteins, you know, DNA, RNA, the genome, and so on. 
I really would be interested in how the proteins in this 
coronavirus impact cells, lung tissue, for example.
     Dr. Maxon. Thank you for that question. So what I was able 
to learn yesterday in the study of the infected cells, it's 
still early days, so the experiments need to be worked out and 
they are developing some results now. It looks like when the 
virus infects the cell, it then goes through a process of 
creating what's called a replication center. That replication 
center does what it sounds like it should do, and that is it 
begins to use the machinery of the host cell to replicate more 
and more and more pieces of the virus to create more viruses to 
then be released and infect other cells.
     It's really early, though, to be able to detect what the 
actual form of infection is that causes sickness. At least from 
these x-ray studies from the user facility we're just a few 
ways off from understanding that. But understanding at the 
cellular level, the creation of a replication complex center 
and the fact that there are cells that can fuse together to 
have two nuclei in the cell, that was found by these x-ray 
tomography studies, very interesting and still very early days. 
We're not sure what it means yet, but getting closer to 
understanding it for sure. Thank you for the question.
     Mr. Baird. Can I continue on with one more question then? 
So these new proteins, how do they escape the original cell? Do 
you have a feel for that?
     Dr. Maxon. Yes, so thank you. There's a process by which 
the cellular machinery is hijacked if you will not only to make 
more virus but to extrude the virus out of the cell. For 
decades we've understood how cells are infected with other 
types of viruses to then release the virus particles into other 
cells.
     Mr. Baird. Very good. Dr. Wrighton, you mentioned your 
work and getting a lot of sequencing done in a very short 
period of time, but my question to you is what happens to the 
coronavirus as it comes in contact with soil?
     Dr. Wrighton. You know, I think that we're still in very 
early days in terms of surveillance of the coronavirus and 
other viruses like the coronavirus and their distribution 
across different ecosystems, soils, rivers, wastewater streams. 
I think a very active and exciting research that's led by some 
colleagues at JGI that I was actually just speaking to this 
morning about this was we're basically trying to figure out 
ways that we can survey the diversity of these types of viruses 
so we get a sense for the reservoirs of these viruses. Also, 
we're trying to develop new tools so we can look at the 
variation within these viruses so that we can maybe start 
seeing those different populations and these changes and we 
could maybe better track these viruses using their genome tags 
over time and space beyond just the human host but have a 
better, broader environmental context. So I think that's a 
place where JGI will really play an important role moving 
forward.
     Mr. Baird. So I got about 1 minute left, and I would ask 
you and Dr. Maxon both, so the BER in your opinion plays an 
important role in finding the answers you just both discussed.
     Dr. Maxon. Yes.
     Mr. Baird. I see you nodding your head.
     Dr. Wrighton. Yes, without a doubt. And I just think, too, 
it's this parallel investment. I mean, I think anytime you get 
discovery in one end, it transcends and fuels another side and 
back and forth. And I think that's what we really need to be 
armed and ready for this pandemic and the next pandemic.
     Mr. Baird. Well, I think that kind of cooperation and 
collaboration is absolutely essential. And I think this basic 
research is really critical, especially in times like this 
pandemic.
     So I see my time is about up, and so, Madam Chair, I yield 
back the balance of my time. Thank you.
     Chairwoman Fletcher. Thank you, Dr. Baird. I'll now 
recognize Ms. Horn for 5 minutes.
     Ms. Horn. Thank you very much, Chairwoman, and thank you 
to all of our witnesses for this insightful and incredibly 
helpful hearing today.
     My first question is for Dr. Maxon and Dr. Randall. And 
specifically around DOE's laboratories and their involvement in 
past pandemic responses such as HIV, Ebola, and influenza, and 
I'm wondering how the existing research has been adapted or 
reoriented for COVID-19 research purposes right now.
     Dr. Randall. Yes, I can say, you know, in particular two 
past coronavirus pandemics, SARS-CoV-1 and not as big but 
Middle Eastern coronavirus, we're talking about how these 
proteins look, their structures, and they're similar and they 
have similar biochemical properties, so knowing how we could 
make and purify them and what they look like really expedited 
how fast we could learn the structures of the current 
coronavirus, SARS-CoV-2. So that's certainly one example of 
where past research really had us prepared and ready to move 
very quickly with the current pandemic.
     Ms. Horn. Thank you very much. Dr. Maxon?
     Dr. Maxon. Thank you. I will offer one example. I know 
that from the time of the Ebola virus pandemic, the Advanced 
Light Source researchers again used the x-rays to understand 
the viral structure and how the proteins of the virus do what 
they do. So I do know that at least in the case of the Ebola, 
the Department of Energy was in fact involved.
     Ms. Horn. Following up on that a little bit more, Dr. 
Maxon, how is the COVID-19 pandemic different from outbreaks of 
other infectious diseases in terms of impact on DOE's research 
efforts or the way that DOE has approached disease-specific 
research?
     Dr. Maxon. Impacts, there's a couple of ways. I think, 
first, I would be remiss if I didn't say that a major impact of 
the COVID-19 pandemic is on the cost of doing research. That 
has been a significant challenge for us to deal with. So that's 
one.
     I think in terms of impacts of disease research 
specifically around this pandemic, as I said, bringing together 
the labs to pull all parts of what we have as core capabilities 
toward this problem, we have people working with the parts of 
the lab that do biomanufacturing process development, never 
before working on a treatment for an antiviral but definitely 
doing that now and working with companies to do it.
     Ms. Horn. Thank you very much. And I want to turn slightly 
different focus for just a moment. And, Dr. Maxon, continuing 
on with you. In your testimony you mentioned that DOE research 
has drastically reduced the predicted cost of new biofuels. And 
as we are looking at not only addressing the next pandemic and 
DOE's role in research, we also have to take into account so 
many other factors, environment and related factors. And 
biofuels are going to be a critical component of, I think, next 
generation energy. So I'm curious about what advances--or how 
these advances are transferred to industry and what additional 
resources may be needed by DOE to help enable the commercial 
adaptation and adoption of biofuels?
     Dr. Maxon. Thank you. Biofuels, so the way that these 
advances are translated to industry include from the Bioenergy 
Research Centers' proactive engagements with industry to make 
clear that there are new technologies available in the biofuels 
space for licensing, frankly. And I think what's required now, 
there's still a gap, as I mentioned. The costs have come down, 
but the gap in being able to make these commodity products, 
these biofuels at scale is missing, and that piece, being able 
to take a small-scale laboratory proof-of-concept and make it 
commercially scaled, that's the gap that I think is seriously 
missing and we could use some help.
     Ms. Horn. I have very little time left, but thank you for 
that, and I think filling that gap is critically important, so 
thank you. And Madam Chair, I yield back.
     Chairwoman Fletcher. Thank you, Ms. Horn. I'll now 
recognize Mr. Cloud for 5 minutes.
     Mr. Cloud. Thank you. And thank you all for being here 
today. We certainly appreciate the work you do to keep us on 
the forefront of science, especially when we consider the 
competitive global environment that we're in, how important it 
is for the United States to stay on the cutting edge of these 
technologies and these advancements in science. I really 
appreciate it.
     Kind of continuing on with the questioning Ms. Horn had, 
just talking about some of the lessons learned from previous 
pandemics and such, not only are we learning a lot about the 
science when it comes to COVID, but it seems to me we're doing 
things a lot differently, not only coming up with new 
discoveries but also new best practices. Could you compare 
maybe some of the lessons we're learning from an operational 
standpoint, from a best-practice standpoint compared to how we 
approached the work of research compared to previous pandemics?
     Dr. Mohnen. With people that use systems biology and 
computational modeling on plant systems where we don't have as 
much information as we do on human systems because on plants 
there are many, many species, humans we've got a lot more money 
concentrated on humans and model mice, et cetera. So the data 
that you have for human systems is incredible, whereas a 
systems biology approach is always limited by the data set.
     When you get to humans, what I've seen now with what Dan 
Jacobson and others can do with these supercomputers that DOE 
funds, we've got the second-fastest in the world and the amount 
of data out there, both published and in-house from the DNA 
sequencing, RNA sequencing, et cetera, they are now at a point 
I actually didn't believe a couple years ago we would be at. 
They can make predictions by running supercomputers and 
integrating all the data from metabolomics, from proteomics, 
genomics, evolution, and they can come up with hypotheses that 
have a very strong potential of being correct, that can direct 
our thinking. We've gone over, I think, an edge to where now 
you're not going to get definitive answers from this but you're 
going to get answers that are highly probable and then can 
inform the people that go in the lab into the experiments. I 
think this is a turning point that only has become possible 
with these supercomputing abilities and the ability to do the 
systems biology.
     And, finally, the fact that you've got this national lab 
set up where you interact with a bunch of specialists, whether 
they be academic or in the labs to inform the information as 
the results are interpreted. I'll stop.
     Mr. Cloud. Well, thank you.
     Dr. Randall. Yes, I was just going to follow that up and 
say I agree completely. And also the speed of sequencing and so 
forth has ramped up so fast that within discovery of the virus 
we had sequenced within, you know, a week and all the companies 
that are rushing out their vaccines and knew how to synthesize 
spike to get it in their vaccine platforms to where we're 
getting these vaccine candidates years before we traditionally 
have.
     And these platforms were all developed, you know, for 
things that were not SARS-CoV-2. The only thing SARS-CoV-2-
related in them is the spike protein. And so really there's a 
lot of platforms and best practices in place. I know the 
pandemic seems long, but the response historically is very 
fast.
     Mr. Cloud. Yes. Well, thank you. Dr. Maxon, I was 
wondering from your experience in Berkeley National Lab, you 
know, we can appreciate the research going on, but then we also 
know that our research has been under attack in a sense from 
other nation-states, specifically China. Can you speak to what 
the DOE has been doing to ensure that our research continues to 
be safe and secure?
     Dr. Maxon. I can speak from the perspective of an employee 
at Lawrence Berkeley National Lab.
     Mr. Cloud. Right. Right.
     Dr. Maxon. We definitely take very seriously the export 
controls. We follow those controls very clearly to make sure 
that our research stays our research. We are looking very 
carefully at our foreign visitors' processes to make sure that 
we know who's coming onto the lab and we know what they're 
there to do. And so we're taking the precautions to make sure 
that our research stays our research. We've actually in the 
last couple of years updated some of our badge-in systems so 
that we can keep track of who came in and when. And so I think 
we are at least at our national lab and I'm sure others are 
very, very concerned about keeping things and all of the data 
that we have in our labs secure from attack.
     Mr. Cloud. Well, especially with teleworking, I guess 
that's one of the concerns I have. Can you speak to that at all 
or----
     Dr. Maxon. I understand--thank you. Teleworking does 
present some new concerns, especially many of the computing 
people don't have home systems that can handle the big scales 
of data that they need to use. But as it relates to the 
security of the data, I understand that the IT (Information 
technology) infrastructures at the labs are working hard to 
make sure that we have all the right up-to-date tools. We 
talked about updating facilities earlier, updating the cyber 
aspects of the labs are important, too, just for that reason.
     Mr. Cloud. Thank you very much. I appreciate it. My time 
is expired. Thank you for being you today, all of you.
     Chairwoman Fletcher. Thank you, Mr. Cloud. I'll now 
recognize Mr. McNerney for 5 minutes.
     Mr. McNerney. Well, I thank the Chairwoman and Ranking 
Member and I thank the panelists. I have to say it is exciting 
hearing about what's going on in the labs.
     And my first question is for Dr. Maxon, and it'll be a 
softball. And it's good to see you here, Dr. Maxon. You noted 
that societal challenges such as the need to store carbon at 
massive scale and produce crops and develop crops for changing 
climate demand quick action and quick response. How important 
is it for the United States to maintain its lead in these 
areas?
     Dr. Maxon. Thank you for the question, Doctor. It's 
critically important that the Nation maintain our leadership. 
We have the capability to produce a billion tons of sustainable 
biomass in the United States. It's a strategic natural reserve 
of sorts. And to be able to convert that biomass into the 
bioeconomy's products, including transportation fuels and 
chemicals and reduce greenhouse gas emissions, it's critically 
important that we maintain that lead. We're the only country 
that has a lead like that.
     Mr. McNerney. Is the current Federal investment adequate 
to ensure that we do maintain the lead?
     Dr. Maxon. Well, that's a challenging question to answer. 
I would offer from my own perspective that more resources would 
be very helpful in allowing us to understand how to take 
diverse feedstocks such as agricultural waste and forest waste. 
In California, as you know, we have a lot of forests that are 
overgrown.
     Mr. McNerney. Yes.
     Dr. Maxon. If we could turn that forest waste in--that 
woody biomass into biomanufactured products, fuels and 
chemicals used regionally, for example, like microbreweries, I 
think that would be a very good investment to make, more about 
how to change the feedstock capabilities of the United States.
     Mr. McNerney. Well, thank you. The pandemic has been with 
us since February or March, and we hear about the capabilities 
of the lab complex to address national crises such as the 
pandemic. Can anyone on the panel point to specific 
achievements in this effort that is now helping the Nation 
fight the pandemic?
     Dr. Mohnen. Well, Mr. McNerney, as I mentioned more so in 
the written statement, I was actually very surprised when I 
read Dan Jacobson's work because I worked on the plant 
microsite, so I had to catch up. That systems biology approach 
identified 11 FDA-approved medications that should be able to, 
if the analyses are correct, improve some of the effects of the 
COVID infection. And I assume those are being looked at 
immediately in small clinical trials. There are other people on 
the panel who are more experts in the COVID themselves. But 
even that--and his work's made quite a splash. It's been 
covered in Forbes and many medical journals. And that's just 
one example.
     Then the other example was the work--and I've forgotten 
the researcher's name now. It comes out of a laboratory where 
they used the modeling capabilities and the 3-D protein 
structure prediction. These researchers determined the first 
structure of one or more of the COVID proteins at a temperature 
that might exist and the temperature of the body actually. And 
that gave information on slightly different structures that 
could be important in understanding how medications or cell 
proteins or metabolites interact with them. So the results are 
completely new, up-to-date, and informative. But I yield now to 
people with more expertise with COVID-19.
     Mr. McNerney. Well, I'm going to move on to my next 
question, though. The lab consortium or collaboration have been 
working with the pharmaceutical companies to develop vaccines. 
You just mentioned, Dr. Mohnen, about therapeutics. Is anyone 
able to give an example of collaboration between the BER and 
private companies? And what are the ownership issues involved?
     No one's going to bite on that one? OK.
     Well, my last question, on Wednesday, 78 Stanford 
researchers and physicians issued a letter about the falsehood 
and misrepresentations of science that have been spread by Dr. 
Scott Atlas, who was appointed to the White House Coronavirus 
Task Force last month. This is only one example of the 
Administration's attack on science. What impact do these 
disregards for science have on our ability to fight COVID? 
Whoever wants to step up.
     Dr. Randall. I'm not going to speak specifically to that, 
but what I will say is that public trust in science is critical 
to get people to take the vaccine when we get it, and that is a 
concern.
     Mr. McNerney. All right. Thank you. I yield back, Madam 
Chair.
     Chairwoman Fletcher. Thank you, Mr. McNerney. I'll now 
recognize Mr. Foster for 5 minutes.
     Mr. Foster. Thank you, Madam Chairman and to our 
witnesses.
     So I have one very specific question and then one much 
more general one. The specific one is that there is this theory 
of very severe cases of COVID that goes by the name of the 
bradykinin storm hypothesis. And this apparently was discovered 
or verified using the Oak Ridge supercomputers where they 
analyzed the fluid coming from people's lungs who were very 
sick with COVID and looking for genes that were massively 
overexpressed and saw that the genes involved in--what do they 
call it, the RAS system which is local and inflammatory 
response and blood pressure regulation.
     And so apparently, this hypothesis, which was verified on 
the Oak Ridge supercomputers, explains everything from COVID 
toe to the fact that the virus gets in through the blood-brain 
barrier to the fact that vitamin D is a very promising 
therapeutic and prophylactic. I was just wondering, is that on 
any of your radar screens? Is that a real result coming from 
the DOE supercomputers? Anyone familiar with that?
     Dr. Mohnen. Yes, it absolutely is a real result. It comes 
from Dan Jacobson's work. And he's got multiple papers, and 
I've been reading a couple of them. He is top-notch world-class 
systems biologist. I spoke to him personally for this panel. I 
know him. He works in the bioenergy center. Because he's so 
good at what he does--and he's done two--it's either the 
largest or the fastest computational predictions using 
computers anywhere in the world. He really is outstanding.
     I talked to him about this because I couldn't understand 
how he did it. And he told me--because he had to keep up his 
other work, which was on microbes and plants--as this hits--and 
he knew the systems biology approach and the computers because 
this is what he does. He takes multiple pieces of data, uses 
the computers, looks for connections, then reads the literature 
deeply. He was working 21 hours a day for weeks and weeks on 
end. And he brought in multiple medical people from multiple 
institutions.
     Now, what we have to say is when you do this kind of 
systems biology approach--and--the data looked very compelling, 
and he will say in his paper now it has to be tested. These 
have to be tested in clinical trials. But the data are 
incredibly robust. And I believe it's all being followed up, 
but I know there are many more papers, so this----
     Mr. Foster. Yes, his paper----
     Dr. Mohnen [continuing]. Is top-notch.
     Mr. Foster [continuing]. Identified a number of 
therapeutic targets. And I presume those are being followed up 
in clinical trials, though I'm not familiar with that.
     Dr. Mohnen. I'm not sure, but I believe so, too.
     Mr. Foster. Yes. All right. And my more general question 
is one of the trends that people mentioned in biology is this 
business of what's sometimes called cloud-based biology. And 
that's where you have large farms of robots that will do 
biological experiments. And so this is something where 
potentially, you know, a scientist at a university can sit down 
on their computer, define the experiment we want to, you know, 
get this cell line and modify it genetically this way, expose 
it to this, wait 18 days, and then, you know, section it up and 
send me the photos. And so without actually ever touching or 
owning or taking possession of the biological samples, you 
could perform experiments.
     And it strikes me this is something where there may be a 
role for national labs to actually engage in gigantic purchases 
of initial systems the same way we engage in new generations of 
supercomputers, the new generations of experiments and then 
open it up, you know, in a way very similar to supercomputers 
where different university groups can sort of bid for time on 
these things.
     And I was wondering is that a sort of model that makes 
sense to seed investments that can be immediately used by 
universities? And this seems to relate to Dr. Wrighton's 
comments earlier.
     Dr. Wrighton. Yes, I am so excited, Congressman Foster, to 
hear you say this because this is exactly up my alley. I mean, 
I think that what we're finding at the user facilities is 
they're very successful, and many of the key resources are 
becoming fairly inundated, so the turnaround time or the 
lifecycle of actually processing samples is somewhat delayed 
just because of the demand, and so we really have to rethink 
scalability in terms of maybe not one building but maybe like--
and there's a--there are some companies that you may be 
familiar with, Emerald Cloud Labs and others where you can 
basically--you know, they have these robotic facilities, and 
you can log in and kind of high throughput with more 
reproducibility and greater efficiency.
     And so that will really allow us to run little pilot 
studies, look at the data in real time, and then do bigger 
experiments. And so it creates a much more dynamic and 
efficient working environment than having to collect 400 
samples and send them all in because that's the allocated time 
you get.
     So I think the future--if we're really going to talk about 
how we can innovate and do more with what we have or even just 
extend our resources in new ways, I think that's a very 
exciting future.
     Mr. Foster. Yes. And it would allow, you know, smaller 
university-based researchers to compete at the very top level, 
as well as dealing with the reproducibility crisis----
     Dr. Wrighton. Absolutely.
     Mr. Foster [continuing]. Some fraction of it at least in 
biology that you publish the specifications that could 
reproduce that at any robotic facility anywhere. I see my time 
is up and yield back.
     Chairwoman Fletcher. Thank you, Mr. Foster. I will now 
recognize Mr. Casten for 5 minutes.
     Mr. Casten. Thank you, Chairwoman Fletcher, and thanks to 
our panel. This is going to surprise all of my colleagues, but 
my questions are about climate change, not COVID.
     I have--and, No. 1, we--you know, just [inaudible] 
conclusions, we have got to get to zero net carbon emissions, 
and we've got to get there yesterday. I am somewhat sanguine 
about our path to get there in terms of our energy use because 
I can identify technologies to make electricity and 
transportation fuels, heat, the things we need for energy. I 
have real concerns about what we are going to do in those 
places where we use fossil fuels as a chemical input typically 
to reduce organic compounds. How do we make fertilizer? How do 
we make steel? How do we make silicon? How do we make 
magnesium? And biology has a way to do that, right, with 
photosynthesis is a way to reduce compounds with sunlight 
input, some of the weird archaebacteria that live on volcanic 
[inaudible].
     And it strikes me that there are interesting research 
projects that are scattered. I introduced a bill that's passed 
through this Committee, H.R. 4320, the Clean Industrial 
Technology Act, which has a purpose to bring all of the DOE 
research around how do we decarbonize those hard-to-decarbonize 
industries and bring it's one place?
     And I guess I want to start with you, Dr. Maxon. Can you 
give us any oversight of what if any programs you are aware of 
that DOE is doing in that vein around how do we use biological 
solutions to reduce inorganic materials? And what if anything 
can we do to help accelerate that research?
     Dr. Maxon. Thank you for that question. Biomanufacturing, 
yes, in fact, the Department of Energy in January hosted an 
InnovationXLab biomanufacturing summit directed on this very 
topic and invited hundreds of companies to come in and see the 
technologies, the assets, and the programs that the Department 
of Energy has at its national labs to do just this, to reduce 
the energy intensity of manufacturing and to use petroleum to 
reduce petroleum feedstocks.
     I mentioned a little while ago the billion-ton bioeconomy, 
the billion tons of sustainable biomass. We're making big 
progress in being able to convert that biomass into useful 
things but can't do it cheaply yet.
     There are a number of other programs. The Agile BioFoundry 
is a Department of Energy program that is looking to speed for 
industry and for academic partners the ability to design 
biological systems to do just this, to harness them to do by a 
manufacturing. So the Agile BioFoundry is a new one. The 
Bioenergy Research Centers are focused on conversion of 
lignocellulosic products, woody biomass, for example, into 
fuels and bioproducts. So there are a number of them that 
exist, but I would say that given the crisis, we could use a 
lot more help in this regard, more of these and more pilot 
fermentation facilities, steel, if you will, fermentation to 
get us to that next scalable leap.
     Mr. Casten. So if I could--and maybe others--I'm not sure 
I've asked my question very well. The lignocellulosic 
materials, making building materials, making products like--I 
get that. What I--and I don't even understand the 
thermodynamics well enough, but if we're going to take, you 
know, nitrogen and make it into ammonia, I know how to do that 
with natural gas. If we're going to take quartz silicon 
dioxide, make it into silicone, I know how to do that with coal 
or to reduce iron oxides into steel. Are there biological 
pathways that we could imagine to use biological systems' 
ability to reduce those compounds? And is there potential to 
scale that up, or is there some reason why those are just--is 
there something about, you know, the way that life has put 
together the thermodynamics that makes that impossible?
     Dr. Wrighton. I think, Congressman Casten, there's two 
parts to this answer. One is the biological discovery, and I 
think, you know, just two weeks ago it came out in the paper 
looking at how you can produce ethylene with microbes using 
enzymes that we never knew about until just this year. And do 
it independent of oxygen, so do it independent of combustion. 
So I think that there is this discovery aspect and there's that 
basic science aspect, but the scalability part I think is the 
yet-to-be-seen part for me in terms of harnessing these new 
biological pathways and overcoming the thermodynamics within an 
organism and then thinking about how we actually can develop 
these precursors with, you know, more neutral carbon economy.
     But I think that we're at the point now where we're able 
to now mine and scratch the surface into the biology, and the 
next phase of our discovery is going to be scaling, again, to 
do these technologies--at least in these really new spaces, not 
some of those like plant deconstruction and they're, you know, 
10 or 15 years ahead of some of the more new discoveries we're 
fighting about, microbial pathways for these compounds.
     Mr. Casten. OK. Well, I'm out of time and yield back but 
will maybe follow up with you offline because I'd like to get 
some overview of where these programs are and what we could do 
to accelerate because I do think we're out of time and we need 
to----
     Dr. Wrighton. OK. I look----
     Mr. Casten. But 5 minutes, we're out of like--our species 
is running out of time. But we'll continue that offline. Thank 
you.
     Chairwoman Fletcher. You are correct, Mr. Casten. Your 5 
minutes has expired, and we will now recognize Mr. Beyer for 5 
minutes.
     Mr. Beyer. Thank you, Madam Chairman, very much. And thank 
you, panelists, for an amazing amount of information. I'd like 
to start with Dr. Mohnen, and thanks for your comments about 
Dr. Jacobson and the work done at Oak Ridge. And I want to 
thank Bill Foster for sending that article of that, which I 
thought was just remarkable, the notion of crunching data, 
40,000 genes, sending in a thousand genetic samples, two and a 
half billion genetic combinations. And the articles themselves 
really lead to some interesting thoughts about treatment. If 
this thing is bradykinin storm thing is real, we could be in a 
very different place in a couple weeks from now.
     But, Dr. Mohnen, you're also the historian, so I want to 
thank you for letting us know that the Human Genome Project 
started through BER. And I wonder because I've always thought, 
you know, Francis Collins, Frank Venter, George Church, how now 
does JGI interact with NIH and with the other folks doing human 
genomes?
     Dr. Mohnen. Well, thank you for the question. I think it's 
a very interesting one. But I think that there are other 
panelists who probably have better information on that 
interaction, so I think I will pass that off to someone who 
knows more about that particularly.
     Mr. Beyer. Dr. Wrighton?
     Dr. Wrighton. So the question--sorry, could you repeat 
your question?
     Mr. Beyer. Well, so you have the Joint Genome Institute, 
but then you also have NIH and Francis Collins, nebula 
genomics, all the work being done at Harvard, MIT 
(Massachusetts Institute of Technology). How do all those work 
together?
     Dr. Wrighton. Yes, and so I think--so to my knowledge--and 
others may be able to have a broader perspective--is that the 
Joint Genome Institute generally focuses on the nonhuman 
aspects of the biology. That does not mean that they're 
decoupled from NIH, and I want to stress that because there are 
themes that you can do in one system like understand enzymes 
and pathways and make discoveries, and then you can take those 
to the NIH--and I've done this in my own career--and apply for 
funding in the NIH and site those same processes in the human 
data.
     So it's not that they're--but the research focus of the 
JGI is typically on nonhuman, you know, research, but it 
doesn't mean the discoveries that are made at JGI by JGI 
researchers or their collaborators do not then go and advance 
through the NIH angle. So they're just kind of different 
themes, but you can take ideas from one area and bring it to 
the other and vice versa. Does that make sense?
     Mr. Beyer. It does. And you set up my next question, which 
I think is for Dr. Maxon because you're the Federal lab person. 
Just reading your testimony and listening to it, I came up with 
the CABBI (Center for Advanced Bioenergy and Bioproducts 
Innovation), the CBI, the GLBRC (Great Lakes Bioenergy Research 
Center), the JREI, the JGI, the ERC (Engineering Research 
Centers), the NMDC (National Microbiome Data Collaborative), 
the APPBD, the EMSL, the KBase (Systems Biology Knowledgebase), 
the ADF, and others. Is this the idea that we have micro-
focused so many different places or is this empire-building or 
why do we have such an incredible proliferation of separate 
institutes within the Department of Energy just on biology?
     Dr. Maxon. Thank you for the question. The biological 
challenges are enormous, and they are complex. And each one of 
those four Bioenergy Research Centers that you mentioned is 
working on a different way to attack the similar problem. And 
so it's a way to have nonredundant maximum shots on goal to 
achieve the solution rather than putting all your money in one 
basket.
     Going back to your question about NIH for a second, I'd 
like to weigh in on that as well for just a minute to say that 
the National Microbiome Data Collaborative is a brand new DOE 
program that is intended to take all microbiome data, as Dr. 
Wrighton was just talking about, and make that data fair, 
findable, accessible, interoperable, and reusable, meaning it 
doesn't matter whether the microbiome data came from an NIH 
researcher or a DOE researcher or a USDA (United States 
Department of Agriculture) researcher. All those data based on 
the vision, should be able to be findable, interoperable, and 
used together to develop all new theories and hypotheses and 
experimentation programs. So that new thing is helping to 
bridge the gap.
     Mr. Beyer. That's terrific. And one last question, Dr. 
Maxon. We have at least three prominent women scientists on our 
panel today. Does this mean that women are finally assuming 
their rightful place in science?
     Dr. Maxon. Wow. I'll say yes.
     Mr. Beyer. OK, great. Madam Chair, I yield back.
     Chairwoman Fletcher. Thank you.
     Mr. Beyer. Madam Chairwoman, yield back.
     Chairwoman Fletcher. Thank you, Mr. Beyer, great last 
question. And it is wonderful to see the expertise assembled on 
this panel, the incredible women here, but really the efforts 
of everybody at our national labs, the work you have done in 
response to the coronavirus pandemic and more broadly, so it's 
really wonderful for us to hear from you this afternoon. So I 
thank you all very much for your participation, for your 
insights, and for your work for our country right now. We need 
you, and we are so lucky to have you. So thank you so much for 
your testimony here today.
     Before I bring the hearing to a close, I just want to let 
my colleagues know that the record will remain open for 2 weeks 
for additional statements from Members and for any additional 
questions that the Committee may ask of the witnesses.
     With that, the witnesses are excused, and I'm going to use 
my gavel here so you can all hear. The witnesses are excused, 
and the hearing is adjourned.
     [Whereupon, at 3:01 p.m., the Subcommittee was adjourned.]

                                Appendix

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
